Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 TRIPLE-S SALUD DID NOT CLAIM
SOME ALLOWABLE PENSION COSTS
       FOR FISCAL YEARS
      2007 THROUGH 2009


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                        April 2013
                                                      A-07-12-00396
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices

    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

      Triple-S Salud did not claim $232,120 of allowable Medicare pension costs for
      Medicare reimbursement for fiscal years 2007 through 2009.


WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs—that is, the
annual contributions that these contractors make to their pension plans. The amount of pension
costs that the Centers for Medicare & Medicaid Services (CMS) reimburses to the contractors is
determined by the cost reimbursement principles contained in the Federal Acquisition
Regulation, Cost Accounting Standards (CAS), and Medicare contracts. Previous Office of
Inspector General reviews found that Medicare contractors have not always complied with
Federal requirements when claiming pension costs for Medicare reimbursement.

The objective of this review was to determine whether Triple-S Salud (Triple-S) complied with
Federal requirements when claiming pension costs for Medicare reimbursement for fiscal years
(FY) 2007 through 2009.

BACKGROUND

Triple-S administered Medicare Part B operations under cost reimbursement contracts with CMS
until the contractual relationship was terminated effective March 1, 2009.

WHAT WE FOUND

Triple-S claimed pension costs of $1,500,739 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $1,732,859. The
difference, $232,120, represented allowable Medicare pension costs that Triple-S did not claim
on its Final Administrative Cost Proposals (FACP) for FYs 2007 through 2009. Triple-S did not
claim these allowable Medicare pension costs primarily because it incorrectly calculated the FY
2008 allowable portion of the CAS pension cost.

WHAT WE RECOMMEND

We recommend that Triple-S revise its FACPs for FYs 2007 through 2009 to claim the
additional pension costs of $232,120.

AUDITEE COMMENTS

In written comments on our draft report, Triple-S concurred with our recommendation and
described corrective action that it planned to implement.




Triple-S Pension Costs Claimed (A-07-12-00396)                                                     i
                                                     TABLE OF CONTENTS

                                                                                                                                          Page

INTRODUCTION......................................................................................................................... 1

           Why We Did This Review ................................................................................................ 1

           Objective ............................................................................................................................ 1

           Background ....................................................................................................................... 1
                 Triple-S Salud ......................................................................................................... 1
                 Medicare Reimbursement of Pension Costs ........................................................... 1

           How We Conducted This Review .................................................................................... 1

FINDING ....................................................................................................................................... 2

           Claimed Pension Costs ..................................................................................................... 2
           Allowable Pension Costs Not Claimed ............................................................................ 2

RECOMMENDATION ................................................................................................................ 3

AUDITEE COMMENTS ............................................................................................................. 3

APPENDIXES

    A: Audit Scope and Methodology .......................................................................................... 4

    B: Federal Requirements Related to Reimbursement
        Of Pension Costs ............................................................................................................. 6

    C: Allowable Medicare Pension Costs for
        Triple-S for Fiscal Years 2007 Through 2009 .............................................................. 7

    D: Auditee Comments ........................................................................................................... 10




Triple-S Pension Costs Claimed (A-07-12-00396)                                                                                                   ii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs—that is, the
annual contributions that these contractors make to their pension plans. The amount of pension
costs that the Centers for Medicare & Medicaid Services (CMS) reimburses to the contractors is
determined by the cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR), Cost Accounting Standards (CAS), and Medicare contracts. Previous Office of Inspector
General reviews found that Medicare contractors have not always complied with Federal
requirements when claiming pension costs for Medicare reimbursement.

OBJECTIVE

Our objective was to determine whether Triple-S Salud (Triple-S) complied with Federal
requirements when claiming pension costs for Medicare reimbursement for fiscal years (FY)
2007 through 2009.

BACKGROUND

Triple-S Salud

Triple-S administered Medicare Part B operations under cost reimbursement contracts with CMS
until the contractual relationship was terminated effective March 1, 2009.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with CAS 412 and 413 and (2) funded as specified by
part 31 of the FAR.

Beginning with FY 1988, CMS incorporated specific segmentation language into Medicare
contracts that requires contractors to use either an allocation method or a separate calculation
method to identify and claim pension costs for Medicare reimbursement. Under the allocation
method, the contractor determines total plan CAS-based pension costs and allocates a share to
Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

HOW WE CONDUCTED THIS REVIEW

We reviewed $1,500,739 of pension costs claimed by Triple-S for Medicare reimbursement for
FYs 2007 through 2009 on its Final Administrative Cost Proposals (FACP).




Triple-S Pension Costs Claimed (A-07-12-00396)                                                     1
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                  FINDING

Triple-S claimed pension costs of $1,500,739 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $1,732,859. The
difference, $232,120, represented allowable Medicare pension costs that Triple-S did not claim
on its FACPs for FYs 2007 through 2009. Triple-S did not claim these allowable Medicare
pension costs primarily because it incorrectly calculated the FY 2008 allowable portion of the
CAS pension cost.

CLAIMED PENSION COSTS

Triple-S submitted Medicare pension costs of $1,500,739 for Medicare reimbursement on its
FACPs for FYs 2007 through 2009. 1 We calculated the allowable Medicare pension costs based
on separately computed CAS-based pension costs for the Medicare segment and the “Other”
segment in accordance with CAS 412 and 413. For details on the Federal requirements, see
Appendix B.

ALLOWABLE PENSION COSTS NOT CLAIMED

We determined that the allowable CAS-based pension costs for FYs 2007 through 2009 were
$1,732,859. Thus, Triple-S did not claim $232,120 of allowable Medicare pension costs on its
FACPs for FYs 2007 through 2009. This underclaim occurred primarily because Triple-S
incorrectly calculated the FY 2008 allowable portion of the CAS pension cost.

The table on the following page compares allowable CAS-based pension costs with the pension
costs claimed on Triple-S’s FACPs and reflected in its accounting documents. Appendix C
contains additional details on allowable pension costs.




1
 The allowable pension costs for FY 2009 were attributable to the pension costs for October 1, 2008, through
March 1, 2009.



Triple-S Pension Costs Claimed (A-07-12-00396)                                                                 2
         Table: Comparison of Allowable Pension Costs and Claimed Pension Costs

                                     Medicare Pension Costs
                                   Allowable     Claimed by
                  Fiscal Year      Per Audit      Triple-S          Difference
                     2007            $757,020         $718,865           $38,155
                     2008             716,366          563,889           152,477
                     2009             259,473          217,985            41,488
                     Total         $1,732,859       $1,500,739          $232,120

RECOMMENDATION

We recommend that Triple-S revise its FACPs for FYs 2007 through 2009 to claim the
additional pension costs of $232,120.

AUDITEE COMMENTS

In written comments on our draft report, Triple-S concurred with our recommendation and
described corrective action that it planned to implement.

Triple-S’s comments are included in their entirety as Appendix D.




Triple-S Pension Costs Claimed (A-07-12-00396)                                            3
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $1,550,739 of pension costs that Triple-S claimed for Medicare reimbursement on
its FACPs for FYs 2007 through 2009.

Achieving our objective did not require that we review Triple-S’s overall internal control
structure. We reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We completed our audit work in November 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit;

    •   reviewed information provided by Triple-S to identify the amount of pension costs
        claimed for Medicare reimbursement for FYs 2007 through 2009;

    •   used information that Triple-S’s actuarial consulting firms provided, including
        information on assets, liabilities, normal costs, contributions, benefit payments,
        investment earnings, and administrative expenses;

    •   examined Triple-S’s accounting records, pension plan documents, annual actuarial
        valuation reports, and Department of Labor/Internal Revenue Service Forms 5500;

    •   determined the extent to which Triple-S funded CAS-based pension costs with
        contributions to the pension trust fund and accumulated prepayment credits;

    •   engaged the CMS Office of the Actuary to calculate the allocable pension costs based on
        the CAS (the calculations were based on separately computed CAS-based pension costs
        for the Medicare segment and the “Other” segment); and

    •   reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of Triple-S’s segmentation of its
Medicare segment pension assets (A-07-12-00395) and used the information obtained during that
audit in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


Triple-S Pension Costs Claimed (A-07-12-00396)                                                    4
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




Triple-S Pension Costs Claimed (A-07-12-00396)                                                 5
 APPENDIX B: FEDERAL REQUIREMENTS RELATED TO REIMBURSEMENT OF
                         PENSION COSTS

FEDERAL REGULATIONS

Federal regulations (FAR 31.205-6(j)) address allowability of pension costs and require that plan
contributions substantiate pension costs assigned to contract periods.

Federal regulations (CAS 412) address the determination and measurement of pension cost
components. This regulation also addresses the assignment of pension costs to appropriate
accounting periods.

Federal regulations (CAS 413) address the valuation of pension assets, allocation of pension
costs to segments of an organization, adjustment of pension costs for actuarial gains and losses,
and assignment of gains and losses to cost accounting periods.

MEDICARE CONTRACTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”




Triple-S Pension Costs Claimed (A-07-12-00396)                                                      6
                                    APPENDIX C: ALLOWABLE MEDICARE PENSION COSTS FOR
                                        TRIPLE-S FOR FISCAL YEARS 2007 THROUGH 2009

                                                              Total          “Other”       Medicare     Total
          Date                        Description            Company         Segment       Segment     Medicare

          2006           Contributions                        $5,000,000     $5,000,000           $0
                         Discount for Interest                 ($370,370)     ($370,370)          $0
    January 1, 2006      Present Value Contributions          $4,629,630     $4,629,630           $0
                         Prepayment Credit Applied            $8,047,273     $7,372,018     $675,255
                         Present Value of Funding            $12,676,903    $12,001,648     $675,255

    January 1, 2006      CAS Funding Target                   $8,047,273     $7,372,018     $675,255
                         Percentage Funded                                      100.00%      100.00%
                         Funded Pension Cost                                 $7,372,018     $675,255
                         Allowable Interest                                          $0           $0
                         Allocable Pension Cost                              $7,372,018     $675,255
          2006           FY Allocable Pension Costs     1/                   $7,252,915     $667,561


                                                              Total          “Other”       Medicare     Total
          Date                        Description            Company         Segment       Segment     Medicare


          2007           Contributions                  2/    $4,000,000     $4,000,000           $0
                         Discount for Interest          3/     ($296,296)     ($296,296)          $0
    January 1, 2007      Present Value Contributions    4/    $3,703,704     $3,703,704           $0
                         Prepayment Credit Applied      5/    $8,297,055     $7,588,121     $708,934
                         Present Value of Funding       6/   $12,000,759    $11,291,825     $708,934

    January 1, 2007      CAS Funding Target             7/    $8,297,055     $7,588,121     $708,934
                         Percentage Funded              8/                      100.00%      100.00%
                         Funded Pension Cost            9/                   $7,588,121     $708,934
                         Allowable Interest            10/                           $0           $0
                         Allocable Pension Cost                              $7,588,121     $708,934
          2007           FY Allocable Pension Costs    11/                   $7,534,095     $700,514
                         Medicare LOB* Percentage      12/                        0.75%      100.00%

                         Allowable Pension Cost        13/                     $56,506      $700,514      $757,020




Triple-S Pension Costs Claimed (A-07-12-00396)                                                                    7
                                                              Total          “Other”       Medicare     Total
          Date                        Description            Company         Segment       Segment     Medicare

          2008           Contributions                        $9,000,000     $9,000,000           $0
                         Discount for Interest                 ($666,667)     ($666,667)          $0
    January 1, 2008      Present Value Contributions          $8,333,333     $8,333,333           $0
                         Prepayment Credit Applied            $8,132,103     $7,481,333     $650,770
                         Present Value of Funding            $16,465,436    $15,814,666     $650,770

    January 1, 2008      CAS Funding Target                   $8,132,103     $7,481,333     $650,770
                         Percentage Funded                                      100.00%      100.00%
                         Funded Pension Cost                                 $7,481,333     $650,770
                         Allowable Interest                                          $0           $0
                         Allocable Pension Cost                              $7,481,333     $650,770
          2008           FY Allocable Pension Costs                          $7,508,030     $665,311
                         Medicare LOB* Percentage                                 0.68%      100.00%

                         Allowable Pension Cost                                $51,055      $665,311      $716,366



                                                              Total          “Other”       Medicare     Total
          Date                        Description            Company         Segment       Segment     Medicare

          2009           Contributions                                $0             $0           $0
                         Discount for Interest                        $0             $0           $0
    January 1, 2009      Present Value Contributions                  $0             $0           $0
                         Prepayment Credit Applied            $1,680,298     $1,561,395     $118,903
                         Present Value of Funding             $1,680,298     $1,561,395     $118,903

    January 1, 2009      CAS Funding Target                   $1,680,298     $1,561,395     $118,903
                         Percentage Funded                                      100.00%      100.00%
                         Funded Pension Cost                                 $1,561,395     $118,903
                         Allowable Interest                                          $0           $0
                         Allocable Pension Cost                              $1,561,395     $118,903
          2009           FY Allocable Pension Costs    14/                   $3,041,380     $251,870
                         Medicare LOB* Percentage                                 0.25%      100.00%

                         Allowable Pension Cost                                  $7,603     $251,870      $259,473

   * Line of business.

Triple-S Pension Costs Claimed (A-07-12-00396)                                                                    8
ENDNOTES

 1/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes. We obtained the 2006
    calendar year (CY) allocable pension cost from our prior review (A-07-08-00268), issued July 28, 2009.

 2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
    contributions included deposits made during the CY and accrued contributions deposited after the end of the CY but within the time
    allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the pension segmentation
    review (A-07-12-00395). The amounts shown for the “Other” segment represent the difference between the Total Company and the
    Medicare segment.

 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the
    contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference
    between the present value of contributions (at the valuation interest rate) and actual contribution amounts.

 4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the CY.
    For purposes of this Appendix, we deemed deposits made after the end of the CY to have been made on the final day of the CY,
    consistent with the method mandated by the Employee Retirement Income Security Act prior to the implementation of the Pension
    Protection Act.

 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is created
    when contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with interest,
    to fund future CAS pension costs.

 6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that
    is available to cover the CAS funding target measured at the first day of the CY.

 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the FAR 31.205-
    6(j)(2)(i).

 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the CY. Because any
    funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1) (as amended), the
    funded ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding divided by the CAS
    funding target. For purposes of illustration, the percentage of funding has been rounded to four decimal places.

 9/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as the
    interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR 31.205-
    6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding target, less the
    prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.

11/ We converted the allocable pension cost to an FY basis (October 1 through September 30). We calculated the FY pension costs as
    1/4 of the prior year’s costs plus 3/4 of the current year’s costs.

12/ We calculated allowable pension costs of the Medicare and “Other” segments based on the Medicare line of business (LOB)
    percentage of each segment. We determined the Medicare LOB percentages based upon information provided by Triple-S.

13/ We computed the allowable Medicare pension cost as an FY pension cost multiplied by the Medicare LOB percentage. Pursuant to
    CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare contracts consisted of the Medicare segment’s
    direct pension costs plus “Other” segment pension costs attributable to indirect Medicare operations.

14/ Triple-S terminated its Medicare contract on March 1, 2009. Therefore, we calculated the FY 2009 pension cost as 1/4 of the prior
    year’s cost plus the costs for January and February 2009.




Triple-S Pension Costs Claimed (A-07-12-00396)                                                                                              9
                                                APPENDIX D: AUDITEE COMMENTS





                 TRIPLE-S                     SALUD             +'
                                              DlueCrou BlutShield of Puerto Rico
                                                                                                                                      Pablo Almod6var Scalley
                                                                                                                                      President e y Principal Oficial Ejecutivo




                  March 8, 2013



                  Mr. Patrick J. Cogley
                  Regional Inspector General for Audit Services
                  DHHS- Office of the Inspector General
                  Office of Audit Services, Region VII
                  601 East 12'h Street, Room 0429
                  Ka nsas City, MO 64106

                                                                                                   Report Number: A-07-12-00396

                  Dear M r. Cogley:

                  This letter is in response to your letter dated February 7, 2013, enclosing the draft report entitled
                  Triple-S Salud Did Not Claim Some Allowable Pension Costs for Fiscal Years 2007 through 2009 (Report
                  Number A-07-12-00396). As requested, the following is our comment to t he recommendation set forth
                  in the report, including a statement of concurrence and describing the nature of t he corrective action
                  planned.

                              Recommendation: That Triple-S revises its FACP for FYs 2007 t hrough 2009 to claim the
                              additiona l pension costs of $232.120.

                             We concur with this recommendation. Triple-S Salud will wo rk directly with CMS this issue
                             because we no longer have access t o t he CAFM system to revise t he FACP for the indicated fiscal
                             years.

                  If you have any question or concern regarding t his response, do not hesitate to contact me.




                  Director, Medicare Office
                  (787) 277-6691
                  carlosg@tri ples-med.org
                                                                                                  ~~f
                                                                                                  (787) 749-4080
                                                                                                  pa lmodovar@ssspr.com




      Triple-S Salud, Inc. Concesionario lndependiente de Ia Blue Cross and Blue Shield Association · P.O. Box 363628, San Juan, PR 00936-3628 • Tel. 787· 749 • 4949 · www.ssspr.com




Triple-S Pension Costs Claimed (A-07-12-00396)                                                                                                                                          10
